                                               ENT OF HOMELAND SECU
                                                 Office of Inspector General
                                            Atlanta Field Office - Audit Division
                                                 3003 Chamblee Tucker Rd
                                                      Atlanta, GA 30341




                                                February 10,2004


MEMORANDUM

TO:                Kenneth 0. Burris, Jr.
                   Regional Director, FEMA Region IV

FROM:
                   Field Office Director

SUBJECT:           South Carolina Department of Transportation
                   FEMA Disaster No. 1313-DR-SC
                   Audit Report No. DA-14-04


The Office of Inspector General (OIG) audited public assistance funds awarded to the
South Carolina Department of Transportation. The objective of the audit was to
determine whether the Department accounted for and expended FEMA funds according to
federal regulations and FEMA guidelines.

The Department received an award of $1.9 million from the South Carolina Emergency
Management Division, a FEMA grantee, to remove snow and provide emergency
protective measures as a result of a snowstorm in January 2000. The award provided 75
percent FEMA funding for 2 large projects. The audit covered the period January 2000 to
May 200 1. During this period, the Department claimed $1,939,290 (see Exhibit) and
received $1,454,468 of FEMA funds.

The OIG performed the audit under the authority of the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. The audit
included tests of the Department's accounting records, a judgmental sample of                              '

expenditures, and other auditing procedures considered necessary under the
circumstances.

Notice: This report remains the property of the DHS Office of Inspector General @HS-OIG) at all times and, as such, is not
to be publicly disclosed without the express permission of the DHS-OIG. Requests for copies of this report should be
immediately forwarded to the DHS Office of Counsel to the Inspector General to ensure strict compliance with all applicable
disclosure laws.
                                    RESULTS OF AUDIT 


The Department's claim included questioned costs of $147,221 (FEMA share $1 10,416)
resulting from excessive equipment, fringe benefits, and overtime labor charges, as
follows:

       The Department's claim of $707'3 14 for force account equipment was overstated
       by $129,126. Federal regulation (44 CFR 206.228) requires States to use their
       own equipment rates to claim equipment costs whenever such rates are used in
       normal daily operations. Moreover, U.S. Office of Management and Budget
       Circular A-87 requires that costs charged to various Federal grant awards be
       treated consistently.

       The OIG found that the Department used the FEMA Schedule of Equipment rates
       to claim equipment costs rather than its own rates, which, in many cases, were
       lower than the FEMA rates. However, the State equipment rates were used for the
       Department's normal daily operations and to claim costs under grants received
       from the Federal Highway Administration. Thus, the Department's own rates
       should have been used to claim costs under the FEMA projects. Accordingly, the
       OIG questions the excess equipment charges of 129,126, as follows:

                        Project         Amount         Amount          Amount
                        Number          Claimed         Eligible      Questioned
                          181           $492,361       $388,818        $103,543
                          195            214,953         189,370         25,583
                         Total          $707.3 14      $578.188        $129.126

   0   The Department claimed $101,056 of overtime fringe benefit costs based on an
       estimated fringe benefit rate of 22.20 percent. However, the OIG determined that
       the Department's actual fringe benefit rate was 19.34 percent. Using the actual
       rate of 19.34 percent, the Department should have claimed $87,215. Accordingly,
       the OIG questions the excess charges of $13,841, as follows:

                                   Actual       Fringe         Actual
              Project             Overtime      Benefits       Fringe         Amount
              Number               Labor         Claimed       Benefits       Questioned
               181                $275,213      $ 61,097       $53,226        S 7,871
               195                 175,742        39,959        33,989          5,970
               Total              &lz&2z2       $101.056       $87.215        $13.841

   e   The Department claimed $179,996 of overtime labor costs under Project 195.
       However, the OIG determined that actual costs totaled only $175,942, or $4,254
       less than the amount claimed. The excess claim occurred because the Department
       based its claim on estimated costs contained in the approved project worksheet
       rather than the actual costs to complete work under the project. Accordingly, the
       OIG questions $4,254.
                                RECOMMENDATION 


The OIG recommends that the Regional Director, in coordination with the grantee,
disallow the $147,221 of questioned costs.


         DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

The results of the audit were discussed with FEMA, grantee, and Department officials on
Novemberl7,2003. Department officials concurred with the audit findings.

Please advise the Atlanta Field Office-Audit Division by April 10,2004 of the actions
taken to implement the OIG recommendation. Should you have any questions concerning
this report, please contact David Kimble or me at (770) 220-5242.
                                                      Exhibit

      South Carolina Department of Transportation
           FEMA Disaster No. 1313-DR-SC
       Schedule of Claimed and Questioned Costs
                     Large Projects


Project       Amount        Amount        Amount
Number        Awarded       Claimed      Questioned
 181         $1,484,163    $1,484163     $11 1,414
 195            455,127      455,127       35,807
Total        $1.939.290    $1.939.290    $147.221
